'Ocfo&('ZI

< •
No.

2.o-/?*'

In the Supreme Court of the United States
James A. Sawyer
versus
Department of Child Support Services
in and for Ramsey County of Minnesota
and the County of Santa Cruz, California
Attorney General of the State of California
Attorney General of the State of Minnesota
On Petition for a Writ of Certiorari to
the California Court of Appeals for the Sixth District

PETITION FOR A WRIT OF CERTIORARI
James A. Sawyer
5485 Ball Drive
Soquel California 95073
(831)247-2350

Co-counsel for Petitioner:
Hon. S.A., Sawyer (1924-1995) retired
F.W. Sawyer (1889-1968) retired
Abbott W. Sawyer (1883-1945) retired

RECEEVED
JUN 1 1 2021
OFFICE OF THE CLERK !
SUPREME CGu'RT, U.C. j

■<

Questions Presented for Review:
1. UIFSA and Procedural Due Process
Is the right to Due Process as vested in a citizen of the United
States durable, transportable, and enforceable
in and between the originating and forum state?
2. Precedence of conflicting interests
where Due Process is protecting the citizen, and
where Full Faith and Credit is protecting the State:
Does a sovereign forum state owe to its citizens
a duty of due diligence in protecting their rights
against infringing actions of a sister state?
3. Modification
Is an order establishing a duty and obligation different in kind
from an order calculating a current balance due on said duty,
thus requiring distinct treatment with respect to the meaning
of the word “modification”, prohibited for one, not the other?

>

Directly related cases:
Sawyer v. Sawyer No. 23798
Ramsey County District Court of Minnesota
Family Division of the Second District
Final Decree entered 1/20/1989
Sawyer v. Sawyer No. ?
Ramsey County District Court of Minnesota
Family Division of the Second District
Entered 6/7/1989
Improperly accelerates property settlement
Sawyer v. Sawyer No. ?
Ramsey County District Court of Minnesota
Family Division of the Second District
Judgment entered 4/17/1990
Amends decree, with specific visitation schedule
Sawyer v. Sawyer No. ?
Minnesota Court of Appeals
Judgment entered 5/25/1990
Overturns acceleration of settlement @ 6/7/1989
Sawyer v. Sawyer No. FL007773
Santa Clara Superior Court of California
Judgment entered 4/4/1991
Controlling order, establishes wage assignment;
actively enforced, ending in 2002, with no arrears.
Sawyer v. Sawyer No. DM-F4-87-23798
Ramsey County District Court of Minnesota
Family Division of the Second District
Rendered 2/1/2001, Judgment entered 4/2/2001
Modifies physical custody on noticed motion
Also determines arrears, w/o notice or consideration
of earlier Santa Clara order @ 4/4/1991.

Sawyer v. Sawyer No. FL007773
Superior Court of California
County of Santa Cruz
Order after hearing ?/?/2005
Sawyer v. Sawyer No. F4-87-23798
Ramsey County District Court of Minnesota
Family Division of the Second District
Continuance entered ?/?/2007
Sawyer v. Sawyer No. FL007773
Superior Court of California
County of Santa Cruz
Order after hearing 12/7/2007
Sawyer v. Sawyer No. FL007773
Superior Court of California
County of Santa Cruz
Order after hearing 5/7/2008
Bench Warrant. Attorney withdrew.
CCP
Sawyer v. Sawyer No. FL007773
Superior Court of California
County of Santa Cruz
Not on calendar 5/7/2008
Appearance noted. Warrant withdrawn.
Also served OSC!7! Thus, I was expected.
Sawyer v. Sawyer No. 7
Ramsey County District Court of Minnesota
Family Division of the Second District
Order after hearing 10/14/2008
Bizarre—inexplicably dismissed, w/o prejudice

Sawyer v. Sawyer No. F4-87-23798
Ramsey County District Court of Minnesota
Family Division of the Second District
Order after hearing 11/4/2008
Attorney requested reconsideration.
Request denied.
Sawyer v. Sawyer No. F4-87-23798
Ramsey County District Court of Minnesota
Family Division of Second District
An oral agreement of the parties and the court,
So that I might not have to travel the 2000 miles
for what might be a third superfluous appearance,
there is an oral agreement of parties and court,
that the court will review, render summary judgment
if possible, or if not, calendar a hearing on the merits.
I agreed, by telephone 11/25/2008.
Sawyer v. Sawyer No. F4-87-23798
Ramsey County District Court of Minnesota
Family Division of Second District
Order after hearing 12/9/2008
To submit memorandum of law—summary judgment
Sawyer v. Sawyer No. F4-87-23798
Ramsey County District Court of Minnesota
Family Division of Second District
Memorandum of law for summary judgment
Submitted 12/12/2008
Sawyer v. Sawyer No. F4-87-23798
Ramsey County District Court of Minnesota
Family Division of Second District
Judgment entered 1/5/2009
A breach of the oral agreement @ 11/25/2008.
No summary judgment. No hearing on merits.
Dismissed, once again, w/o prejudice,
but requiring a bond to re-file.

Sawyer v. Sawyer? No. ?
Court of Appeal of the State of Minnesota
Judgment entered ?/?2009
An interlocutory debacle.
Sawyer v. Sawyer No. FL007773
Superior Count of California
County of Santa Cruz
Judgment entered ?/?/2014
on motion to set aside for failure to produce accounting,
per order @ Santa Cruz 12/2007
Sawyer v. Sawyer No. FL007773
Santa Cruz County Superior Court
Judgment entered 11/19/2018
Denies motion to block re-registration,
Orders equitable relief against registered order.
Which I did not ask for.
Sawyer v. Sawyer No. H046558
Court of Appeal of the State of California
Sixth Appellate District Division Three
Filed 11/20/2020
Affirms denial of motion to set aside
Overturns Equitable relief
California Supreme Court
Petition for Certiorari
Denied 3/10/2021

Authorities (incomplete):
1. Church of the Holy Trinity v U.S., 143 U.S. 266 (1892)
"Absurd" referred to cases where an interpretation
by the letter of the law and not by the spirit or intent
of its framers would lead to absurd results.
2. Armstrong Paint & Varnish Works v. Nu-Enamel
Corp., 59 S.Ct. 191 (1938):
“to construe statutes so as to avoid results
glaringly absurd, has long been a judicial function.”
3. Griffin v. Oceanic Contractors, Inc., 102 S.Ct. 3245
(1982):
“It is true that interpretations of a statute which would
produce absurd results are to be avoided if alternative
interpretations consistent with the legislative purpose
are available.”
4. Lionberger v. Rouse, 76 U.S. 468 (1869):
“It is a universal rule in the exposition of statutes
that the intent of the law, if it can be clearly ascertained,
shall prevail over the letter, and this is especially true
where the precise words, if construed in their ordinary
sense, would lead to manifest injustice.”
5. U.S. v. Powers, 59 S.Ct. 805 (1939):
“There is a presumption against a construction which
would render a statute ineffective or inefficient, or which
would cause grave public injury or even inconvenience.”

6. S.L.H. v. State Fund [12/28/00] 2000 MT 362
S.L.H. v. State Compensation Mut. Ins. Fund,
2000 MT 362,1 17, 303 Mont. 364, 15 P.3d 948, 303
Mont. 364 (2000).
To avoid an absurd result and to give effect to a statute's
purpose, statutes are read and construed as a whole.
7. Fliehler v. Uninsured Employers' Fund, 2002 MT 125
Statutory interpretation is a "holistic endeavor" that
must consider the statute's text, language, structure,
and object. The Court will read and construe a
statute as a whole to avoid an absurd result
and to give effect to a statute's purpose.
8. Re: Colon [12/12/02] 2002 MTWCC 63
Statutes should be construed to avoid absurd results.

Official reports of opinions.
In the Appendix.
Basis of jurisdiction
Petition for writ of certiorari
denied by California Supreme Court
3/10/2021
Statutory provision—no citation..
If statutes are drawn into question—
N/a.
Just a rant in one footnote,
where they are explicitly left for someone else
to address.
Authorities
Due process clause, full faith and credit clause, and
equal preotection clause--of CA, MN, and US constitutions;
UIFSA statutes both federal and state of CA and MN;
CA and MN Code of Civil Procedure, Evidence code, Family
code, and rules of court; Magna Carta; common law
notions of basic “fairness”; and common sense.

/

Statement of the case
James A. Sawyer
Computer Scientist.
Supported four boys total, now three,
two of the marriage.
Minnesota.
Divorced, final decree 1/1989.
The company I worked for closed five months later, without
notice, and without having paid several invoices. Six weeks to
find and interview for positions on both coasts, sell the house,
pack, obtain clearance, drive cross country, rent a studio
apartment for more than the previous mortgage for 3 br house,
start work, work three weeks, and get my first check.
Meanwhile, Rosemary opened a child support case in Ramsey
County, three days before cashing a child support check from
me, sent the same day I received my first check.
4/1991
Wage assignment - Santa Clara 1991
Wage assignment runs through 2002,
Collecting X out of Y dollars of total obligation.
Ongoing ended either 3/99, or 8/99.
Balance actually crossed zero early, in 99,
except a $100/mo obligation that continued through 2002.
3/1999
When I discovered that Jamison was not living at his Mother’s,
I moved him to California with me,
and asked my attorney to notify the court.
Rosemary did not object.

Jamison remained with me through March of 2002,
emancipated in March, at eighteen, and moved back to
Minneapolis a short while later.
In 2006,1 asked my attorney for help straightening out the
child support issue, since it ended in every respect in 2002,
but was still being enforced.
I discovered it wasn’t the same order—there was another
order, first registered in 2005, without my knowledge.
It had come from a completely illegitimate hearing in 2001,
contradicting or ignoring the Santa Clara order of 4/1991.
I have been fighting this ever since.
In 2018, it was re-registered in CA, and I filed a motion to
block that registration, arguing that the MN court was without
competent jurisdiction, the judgment was obtained by fraud,
and that payment had been made, and overpaid.
Opposing council prevented an examination of the actual
account history, so I argued instead, on the basis of their
submissions alone, that the amount claimed ($89k) could not
possibly be correct. Then I showed that I would be entitled to
several additional credits and offsets (missing from opposing
counsel’s evidence), all of which together demonstrating that
the claim was impossibly wrong, and that adding together just
what I had shown would be enough to result in overpayment,
thus there could be no arrears at all. I expected the judgment
would finally be set aside, and we’d get a proper accounting at
a later hearing, using actual evidence and reconciling against
DCSS records, once the bogus arrears were done away with.
The court seems to have mis-understood the jurisdictional
argument to be about subject matter jurisdiction, and denied
that. Having then no reason to understand the likelihood of
fraud in a hearing without me and without notice, denied that.

Next, the court mistook the “using just their records, plus a few
independent facts” argument as instead a request for equitable
relief against the claimed arrears, and ordered a reduction
based on that.
I appealed those errors.
Opposing council appealed the reduction.
Appellate court mis-understood the jurisdiction argument as
having to do with non-residence in MN, and denied that.
Then went on to ignore the rest of my due process argument,
and lost its way in an argument supporting the trial court’s
authority to make equitable decisions, but if it does, needing to
request evidence that would serve that purpose, and instead
took up opposing councils completely fallacious full faith and
credit argument, and then unencumbered by the iligitimate
nature of the judgment, overturned the reduction, and affirmed
everything else.
None of this is particularly uplifting, of course, and while I’d
certainly like to see all that’s been taken from me returned, the
greatest concern is to see such an outrageous denial of due
process, apparently gotten away with because no one in a
position to do something about it seems to know what violation
of due process actually means. Which is not fair.
All of this leaves us with a published opinion that (mistakenly
and accidentally) gives support to one State agency blatantly
violating due process; another State agency blatantly defying
court orders; then together hiding those offenses under a full
faith and credit blanket; and although proven on the record,
ignoring that too, since what the hell, it was all under color of
law.1
That same opinion also seems to have denied that a court of equity
either has or should have the authority to make decisions upon a

Fifteen years with my finger in the dyke, defending myself, the
Constitution and the idea of a rational, reasonable, fair and
decent rule of law from such simple mistakes, failures, or
attacks, whatever their source and motivation, is wearing.
All I want, and still need, is a kindred soul, somewhere of
position, who is willing to look, read, understand, and lend a
hand—just enough to eventually be heard, to confront the
accusations of whoever will claim them, to engage with the
facts in a fair fight, represented by an attorney, or not, to argue
my case orally or in writing, according to the local custom, and
to do so before an unbiased court of competent jurisdiction, a
decision based on the evidence in the record, after having had
proper notice, conducted in a proper former, with a court
reporter.
Because I can and will easily accept and enjoy
or endure whatever comes as result of such a process.
Or I will decide to appeal, if there is sound reason for
doing so, having had an honest day in court.
But no less, not one iota. It simply wouldn’t be right.
Rights endure.
Rights are transportable.
Rights are enforceable.
Rights can be protected, or lost to all.
Nothing is more important.

consideration of what is equitable, but I’ll leave that for someone else to
worry about, along with what appears to me to be stupendously unequal
protection, last seen hanging around in the choice of laws provision of
UIFSA, somewhere near the also likely to be infringing twenty day rale.

Reasons for allowing the writ:
I. Certiorari should be granted on the first question,
addressing the durability and enforcement of due process,
a. because rights must be durable,
b. because rights must be enforceable,
c. because the opinion of the lower court
affirmed deviation from the rules of evidence,
affirmed deviation from codes of civil procedure,
required exercise of discretion exceeding authority,
ignored the proven violation of due process,
with no basis of support found anywhere in the record,
affirmed the continuing extraction of property
occurring without notice, or hearing, or just cause,
determined in secret, upon nothing in the record,
producing no accounting of source or of method,
in defiance of their own published policy,
in defiance of multiple requests,
and in defiance of court order,
and all this asserted in brief,
with citation of transcripts,
and all of it found in the record,
e. because the decision appealed from mistook
the description of incompetent jurisdiction
to be referring to “subject matter jurisdiction”,
and so ruled against,
f. because the decision appealed from was wrong,
since it mistook the due process issue, and did not
follow this to the obvious opportunity for fraud, which
occurred but cannot be proved for the same reason it
occurred—I wasn’t there, and could not confront,
cross, object, testify, or submit evidence to rebut.
g. because the opinion on appeal mistook
our description of incompetent jurisdiction
to be referring to ‘jurisdiction of a foreign party’
and so ruled against,

h. because the issue of incompetent jurisdiction
is found not in the fact that an attorney was present,
but rather in the fact that I myself was not present,
that no notice or motion was ever served, and that
the “determination of arrears” was conducted in
chambers, without transcript.
h. because the mistaken opinion on appeal is published,
i. because the logical consequence of the opinion would
prevent reasonable men from supporting the belief
that our system of justice while not perfectly just,
is in any case ‘fair’.
j. because the logical consequence might
weaken the public trust, exacerbate unrest,
or threaten the peace and security of people,
accustomed to the idea of basic fairness
in the common pursuit of their daily lives.
k. because the outcome is of far reaching effect,
and of interest and concern to everyone, everywhere..
l. because every element of procedural due process
is present.
m. every element has been violated, more than once,
n. the decision below has little dependence on facts
of particular occurrence in this specific case
o. reversal does not itself determine an outcome,
(absent a finding with reference to US42),
and may strengthen acceptance of the final result,
for one or both parties, regardless of outcome.
p. all of which makes this an excellent vehicle
showcasing a (unanimous?) decision, with
multiple concurring opinions, extolling the
virtues of democracy and a meaningful rule
of law, explaining all the parts of due process,
and what can happen when there isn’t any.
For the legal, educational, and foreign policy
opportunities thereof, at very little additional cost.
q. no other court can effect a correction,

II. Certiorari should be granted on the second question,
regarding precedence of conflicting interests, because:
a. due process is a right.
b. due process establishes trust and validity
c. violation of due process invalidates a result.
d. full faith and credit conveys whatever
properties are present in a result to sister states.
e. full faith and credit can convey trustworthy
and valid results to sister states.
f. full faith and credit can also convey untrustworthy
and invalid results to sister states.
g. so a receiving state must be required to verify the
trustworthiness and validity of what it receives.
h. shortcuts taken can destroy trust and validity.
i. due process concerns must take precedence.
j. the lower courts are incorrectly giving full faith and
credit precedence.: they accept it because it was sent,
the result is unknown validity.
III. Certiorari should be granted on the third question,
regarding modification
a. because finding that a duty exists
is a permanently anchoring antecedent fact,
answering the question “Has X occurred?”
with either no -> no action is required
or
yes -> action Y is required
b. whereas the computation of an account balance
produces only a momentary consequent fact,
which is measuring progress so far;
is expected to change over time;
is mechanically reproduced;
is mechanically updated;
and is subject to routine mechanical error.
c. changing an antecedent fact
invalidates every related consequent fact
d. changing a consequent fact
has no effect on the antecedent
e. the comments in committee make it clear

that the intent was to allow correction of mechanical
errors and simple updates without requiring
excess court appearances, formal notices, and
formal transcriptions of all the minutia.
f. Every business also addresses the same issues
of error correction, and reconciliation of receipts,
Conclusion
The petition for a writ of certiorari should be granted for the
foregoing reasons.

Appendix
1. Opinion of Court of Appeal 2020
2. Trial court findings 2018
3 Transcripts
a.
b. my testimony
c. after hearing, mixing issues
d.
4. Memorandum of Law for Summary Judgment
5. Opinion of Minnesota Court of Appeal
6. Magistrate order of 2/1/2001
7. Santa Clara order of 4/1/1991
You want the transcript of testimony.
A quick read.
But the real point is, none of the rest should
be looked at for anything resembling an understanding. It is
in there, but exceptionally
difficult to reach, and time consuming, especially
after the fact, and most can be ignored.
That way, you won’t get lost in the noise.
You can focus on the key issue, which is:
that item #6, the order of 2001,
was the result of an extraordinary violation
of the right to due process.

